No. 20-1912

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

)
)
)
)
)
)
)
)
)

MICHAEL NATHANIEL BOYD,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

Jan 04, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: SILER, Circuit Judge.

Michael Nathaniel Boyd, a federal prisoner proceeding pro se, appeals a district court
judgment denying his motion to vacate, set aside, or correct his sentence filed pursuant to 28 U.S.C.
§ 2255. Boyd requests a certificate of appealability. See 28 U.S.C. § 2253(c); Fed. R. App.
P. 22(b).
In 2017, Boyd pleaded guilty to possession with intent to distribute controlled substances,
in violation of 21 U.S.C. § 841(a)(1), and possession of firearms in furtherance of a drug trafficking
offense, in violation of 18 U.S.C. § 924(c)(l)(A)(i). He was sentenced to serve a total of 240
months in prison, followed by five years of supervised release,.and fined $2,000. Boyd appealed
the denial of his motions to suppress evidence seized during a search of his home, and this court
affirmed. United States v. Boyd, 735 F. App’x 202 (6th Cir. 2018).
In 2019, Boyd filed a motion to vacate, alleging that: (1) trial counsel was ineffective for
failing “to investigate the authenticity of the search warrant affidavit”; (2) trial counsel was
ineffective for filing a motion to suppress “without submitting proof/affidavit”; (3) his sentencing
guidelines range was incorrectly calculated; and (4) the district court erroneously construed his
pro se motion challenging the validity of the search warrant as a motion for reconsideration of the
denial of his previous motions to suppress. Boyd subsequently filed a motion to amend his motion
\K

.//

Appends A

No. 20-1912
-2to vacate to allege four additional claims: (5) trial and appellate counsel were ineffective because
they did not “investigate the search warrant” and “discover that the state court had no record of
[it]” and did not argue that all evidence seized was subject to suppression because it was fruit of
the poisonous tree and “obtained through fraud”; (6) “the prosecutor engaged in misconduct when
he knew or should have known that the warrant was bogus”; (7) he was denied effective assistance
of appellate counsel because counsel failed to challenge his obstruction-of-justice sentence
enhancement and the jury did not determine the obstruction issue; and (8) the district court
erroneously failed to take judicial notice that his search warrant was signed by Judge Westra, not
Judge Santoni, and he was denied effective assistance of appellate counsel because counsel failed
to raise the issue. The district court denied Boyd’s motion to vacate and denied a certificate of
appealability. Boyd’s motions for reconsideration were also denied.
A certificate of appealability may issue only if a petitioner makes “a substantial showing
of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). “A petitioner satisfies this standard
by demonstrating that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encou ragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). A certificate
of appealability analysis is not the same as “a merits analysis.” Buck v. Davis, 137 S. Ct. 759, 773
(2017). Instead, the certificate of appealability analysis is limited “to a threshold inquiry into the
underlying merit of [the] claims,” and whether “the District Court’s decision was debatable.” Id.
at 774 (quoting Miller-El, 537 U.S. at 327, 348).
As background, attorney David Kaczor was initially appointed to represent Boyd in his
criminal case. Kaczor filed a motion to suppress, challenging the search warrant in Boyd’s case
on grounds that the warrant and supporting affidavit lacked probable cause. Following a hearing,
the district court denied Boyd’s motion to suppress. Shortly thereafter, the district court granted
Kaczor’s motion to withdraw and attorney Scott Graham was appointed to represent Boyd.
Graham filed a second motion to suppress, requesting a Franks v. Delaware, 438 U.S. 154 (1978),
hearing and claiming that the affidavit supporting the search warrant contained material
misstatements, that the warrant lacked a nexus between the contraband sought and Boyd’s home,

No. 20-1912
-3 and that the good-faith exception did not apply to save the evidence seized from suppression.
Following a non-evidentiary hearing, the district court denied Boyd’s second motion to suppress.
Boyd’s guilty plea was conditioned on his ability to challenge the denial of his motions to suppress
on appeal.
To establish ineffective assistance of counsel, a defendant must show deficient
performance and resulting prejudice. Strickland v. Washington, 466 U.S. 668, 687 (1984). The
performance inquiry requires the defendant to “show that counsel’s representation fell below an
objective standard of reasonableness.” Id. at 688. Strategic decisions made after a thorough
investigation by counsel “are virtually unchallengeable.” Id. The prejudice inquiry requires the
defendant to “show that there is a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been different.” Id. at 694.
“[Ineffective assistance of appellate counsel claims are governed by the same Strickland
standard as claims of ineffective assistance of trial counsel.” Shaneberger v. Jones, 615 F.3d 448,
452 (6th Cir. 2010). An attorney is not required “to raise every non-frivolous issue on appeal.”
Caver v. Straub, 349 F.3d 340, 348 (6th Cir. 2003). Indeed, ‘“winnowing out weaker arguments
on appeal and focusing on’ those more likely to prevail, far from being evidence of incompetence,
is the hallmark of effective appellate advocacy.” Smith v. Murray, All U.S. 527, 536 (1986)
(quoting Jones v. Barnes, 463 U.S. 745, 751-52 (1983)). Where, as here, appellate counsel
“presents one argument on appeal rather than another ... the petitioner must demonstrate that the
issue not presented 'was clearly stronger Ilian issues that counsel did piesent’” to establish that
counsel was ineffective. Caver, 349 F.3d at 348 (quoting Smith v. Robbins, 528 U.S. 259, 288
(2000)).
In his first claim, Boyd alleged that trial counsel was ineffective for failing to investigate
the affidavit supporting the search warrant in his case. He argued that the search warrant and
supporting affidavit were not authentic because they lacked a state seal, a notarial certification, a
legible magistrate signature, a bar number for the signing magistrate, a time-of-issue stamp, and a
case number. He also noted that a state-court manager advised him that the state-court case file
does not include the search warrant. In his fifth claim, Boyd alleged that trial and appellate counsel
were ineffective because they did not “investigate the search warrant” and “discover that the state

No. 20-1912
-4court had no record of [it]” and did not argue that all evidence seized was subject to suppression
because it was fruit of the poisonous tree and “obtained through fraud.” Boyd relied on the state
court docket, which does not indicate that a search warrant was filed in his case, and a letter from
a state-court case manager, advising him that his state-court case file does not include the search
warrant.
Boyd stated that he asked Kaczor and Graham to find out from the state-court clerk if a
search warrant had been issued in his case, if Judge Santoni had signed the search warrant for his
home, if the affidavit supporting the search warrant had different signatures on the pages, and if
search warrants must have a time stamp when issued and a case number. According to Boyd,
Kaczor addressed only the time-stamp issue but ignored the other issues he wanted Kaczor to
investigate and raise with the district court. According to Boyd, Graham confirmed that Judge
Santoni signed a search warrant on the day that Boyd’s home was searched but Graham ignored
the other issues that Boyd wanted Graham to address. Boyd claimed that Judge Westra, not Judge
Santoni, signed the affidavit supporting the search warrant,

And based on the state-court

manager’s statement that the state-court record did not contain the search warrant, Boyd deduced
that “there was no record of the search warrant in this case being issued, or returned executed.”
Boyd also argued that appellate counsel refused to investigate the validity of the search warrant
and supporting affidavit, specifically whether Judge Santoni signed the warrant and whether the
state-court record included the warrant, and to present those issues on appeal.
The district court concluded that trial counsel were not ineffective for failing to investigate
the search warrant. The district court pointed to Kaczor’s and Graham’s affidavits in which each
stated that they investigated the search warrant in Boyd’s case and found no grounds to challenge
its processing in state court. Graham stated that, after investigation, he raised all issues involving
the search of Boyd’s home that he deemed meritorious. Kaczor stated that, after investigation, he
concluded that the search warrant was properly processed in state court. The district court found
that Boyd’s disagreement with counsels’ investigations of the search-warrant-validity issue failed
to demonstrate the deficient performance and resulting prejudice required to establish an
ineffective-assistance-of-trial-counsel claim. The district court also rejected Boyd’s contention
that the search of his home was unconstitutional because the state did not follow certain procedures

No. 20-1912
-5when processing and issuing the search warrant.

The district court pointed to an affidavit

submitted by Officer Aaron Ham, in which Ham stated that he saw Judge Santoni sign the search
warrant in Boyd’s case. The district court rejected Boyd’s contention that the search warrant was
signed by Judge Westra instead of Judge Santoni, noting that Boyd’s evidence in support of his
contention was not based on personal knowledge and implicitly admitted that the warrant was
signed by a judge. Because the underlying search-warrant-validity issue lacked merit, the district
court concluded that appellate counsel was not ineffective for failing to raise the issue on appeal.
Reasonable jurists would not debate the district court’s conclusion that Boyd was not
denied effective assistance of trial and appellate counsel. See Miller-El, 537 U.S. at 327. The
district court’s findings and conclusions are supported by the record, and Boyd has not presented
any basis for debate. Boyd’s ineffective-assistance-of-counsel claims are conclusory and either
refuted, or unsupported, by the record. See Wogenslahl v. Mitchell, 668 F.3d 307, 335-36 (6th Cir.
2012); Sutton v. Bell, 645 F.3d 752, 755 (6th Cir. 2011). Boyd erroneously concludes that “a
search warrant never existed in this case” because the state-court manager stated that the statecourt record does not include the search warrant and the state-court docket reveals that the search
warrant was not filed in his case. He faults trial counsel for failing to contact the state court and
discovering “that the warrant was never issued.” But the absence of the search warrant on the
state-court docket does not mean that the search warrant was not issued. Rather, the search
warrant, including all required information and signatures of the affiant and judge, was issued in
his case. Boyd’s conclusory arguments do not undermine the warrant’s issuance.
In his sixth claim, Boyd alleged that “the prosecutor engaged in misconduct when he knew
or should have known” that the search warrant was invalid. He argues that, because his attorneys
expressed concern with the validity of the search warrant, the prosecutor should have, at the very
least, contacted the state court and asked “when the warrant was actually issued, and which judge
signed it” because the prosecutor knew or should have known that Officer Ham “was lying.”
In rejecting this claim, the district court concluded that the government was not required to
dismiss the case against Boyd because Boyd’s attorneys questioned the validity of the search
warrant through motions to suppress. The district court noted that Boyd’s motions to suppress

No. 20-1912
-6were unsuccessful because he failed to show that the search warrant was invalid. The district court
further noted that Boyd failed to show that the prosecutor knew that any testimony supporting the
search warrant was false.
Reasonable jurists would not debate the district court’s denial of Boyd’s prosecutorialmisconduct claim. See Miller-El, 537 U.S. at 327. The district court’s findings and conclusions
are supported by the record, and Boyd has not presented any basis for debate. Boyd failed to set
forth adequate facts to support this claim, and his contention that Officer Ham provided false
testimony in support of the search warrant is conclusory and unsupported.
Boyd has abandoned his second, third, fourth, seventh, and eighth claims because he does
not request a certificate of appealability for them. See Jackson v. United States, 45 F. App’x 382,
385 (6th Cir. 2002) (per curiam).
Accordingly, the application for a certificate of appealability is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

\

Case l:19-cv-00447-RJJ ECF No. 36 filed 08/04/20 PagelD.363 Page 1 of 14

Certifiei es# True opy
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
puty Clerk
M-S. District Court
MICHAEL NATHAN IAL BOYD,
Movant,
CASE No. l:19-cv-447
HON. ROBERT J. JONKER

v.
UNITED STATES OF AMERICA,
Respondent.

OPINION AND ORDER
The matter is before the Court on Movant Michael Boyd’s motion to vacate, set aside, or
correct his sentence under 28 U.S.C. § 2255 (ECF No. 1), the motion to amend (ECF No. 15),1 and
Boyd's motion to expedite (ECF No. 35). the government has responded in opposition. (ECF
No. 23). The Court determines that an evidentiary hearing is unnecessary to the resolution of this
case. See Rule 8, Rui.ES Governing 2255 Cases; see also Arredondo v. United States, 178 F.3d
778, 782 (6th Cir. 1999) (holding that an evidentiary hearing is not required when the record
conclusively shows that the petitioner is not entitled to relief).
rBoyd^ primarily rests his argument on his assertion.that his convictions stem from a bad
warrant—a contention both this Court and the Sixth Circuit Court of Appeals rejected in his
criminal case. Nothing in the instant motion persuades the Court that a different result must issue

i

The Court notes that the amendment is not on the Section 2255 form nor signed under the penalty
of perjury. The filing itself, however, substantially overlaps with the original petition and largely
expands on the arguments contained in that petition. The Court considers the motion to amend
and the arguments made within it as part of its overall consideration of Boyd’s request for relief
under Section 2255.
AppeiAclixL &

Case l:19-cv-00447-RJJ ECF No. 36 filed 08/04/20 PagelD.364 Page 2 of 14

here. For the following reasons, the Court finds no merit in Boyd’s arguments and the motion is
DENIED.
BACKGROUND
The Sixth Circuit Court of Appeals summarized earlier the pertinent facts leading to
Plaintiffs arrest:
Anonymous tipsters told the Kalamazoo police that Michael Boyd
was selling drugs. The policesenlisted an informant to confirm. The
informant called Boyd and set up a sale in a parking lot behind
Boyd’s apartment. Police watched a person walk out of Boyd’s
apartment, approach the informant’s car, and sell him drugs. The
informant gave the drugs to thepolice 'and confirmed that Boyd sold
them.
A state magistrate judge issued a warrant to search Boyd’s
apartment. The search uncovered drugs and guns.
United States v. Boyd, 735 F. App’x 202, 203 (6th Cir. 2018).
On September 29,2016, a grand jury charged Boyd with distribution of methamphetamine
(Count 1); possession with intent to distribute 50 grams or more of methamphetamine (Count 2);
being a felon in possession of firearms (Count 3); and possession of firearms in furtherance of drug
trafficking (Count 4). (ECF No. 12).
As the case progressed, Boyd went through multiple lawyers and multiple motions focused
on the search warrant. On November 1, 2016, Attorney David Kaczor filed a motion to suppress
all evidence obtained through the execution of the search warrant on the grounds that the search
warrant and affidavit in support lacked the necessary probable cause,.. fCrim. ECF No. 21).2 The
Court heard argument on the motion in a non-evidentiary hearing on December 12, 2016 and

2 “Crim. ECF” refers to the docket in the underlying criminal case, United States v. Boyd, No.
1:16-CR-192.
2

Case l:19-cv-00447-RJJ ECF No. 36 filed 08/04/20 PagelD.365 Page 3 of 14

thereafter denied the motion from the bench, finding that the affidavit established probable cause
for the search. (Crim. ECF No. 24).
Attorney Kaczor then moved to withdraw, and Attorney Scott Graham was substituted as
Boyd’s counsel. (Crim. ECF No. 35). Attorney Graham filed a second motion to suppress the
evidence obtained through the search warrant. The motion raised issues both with respect to the
validity of the search warrant, as well as issues under. Franks v. Delaware, 438 U.S. 154 (1978)
regarding the truthfulness of the representations made in the warrant affidavit. (Crim. ECF No.
41). Among other things, the motion contended that the warrant affidavit contained a material
misstatement because the affiant officer could not have viewed Boyd exit his residence as the
affiant stated given the layout of the building and the. officer’s position. (Id). The motion also
argued there was an additional misstatement in the affidavit that the Cl had no money on their'
person after the officer search the Cl following the controlled by. Attorney Graham requested a
Franks hearing to address the asserted misstatements and other omissions. The Court held a nonevidentiary hearing on the request on April 27, 2017. After hearing from the parties, the Court
denied the request for a Franks hearing from the bench and denied the motion to suppress.
Thereafter Boyd elected to plead guilty to Count 2 and Count 4 of the Indictment under a
conditional plea agreement that reserved Boyd’s, right to appeal. Following his guilty plea,
however, Boyd filed a series of pro_.se motions seeking to fire Attorney Graham, recuse the
undersigned from the criminal case, set aside his guilty plea, and schedule a new Franks hearing.
Bo^d further raised a number of complained of errors in the search warrant, including that the
warrant had been signed by ^different state court district judge, failed to document the time the.
warrant was issued, and that the document lacked a case number or bar number. (Crim. ECF Nos.
3

Case l:19-cv-00447-RJJ ECF No. 36 filed 08/04/20 PagelD.366 Page 4 of 14

60, 61, 62, 68, 69). On July 26,. 2017, the Court held a hearing on the motion to proceed pro se.
During the hearing, Boyd told the Court that he believed that his attorney should have moved to
disqualify the undersigned; that he wanted to withdraw his guilty plea; and that he believed the
police had searched his residence without possessing, a valid search warrant. After hearing from
Boyd, Attorney Graham, and the government, the Court granted Boyd’s request to proceed pro se.
(Crim. ECF No. 67). Then, in a written Order, the Court denied the request for recusal and motion
to withdraw plea. (Crim. ECF No. 76). To the extent Boyd had reiterated his request for a Franks
hearing, the Court denied the request for the same reasons it provided from the bench earlier.
(Crim. ECF No. 76, PageID.459).
On September 5, 2017, Plaintiff filed a document entitled “Defendant’s Request of the
Court to Take Notice of Plain Error, Admission of New Evidence and Court Rules in Support.”
(Crim. ECF No. 79). The document again took issue with the validity of the search warrant
authorizing the search of Boyd’s residence. It mainly reiterated the arguments Boyd had raised in
his previous pro se motions. He claimed, among other things, the warrant failed to contain information pertaining to the time the warrant was issued, reference a case number, or reflect a
legible signature from the issuing judge. {Id.). The Court construed the motion as one seeking
reconsideration of Boyd’s earlier motions and found that Boyd had failed to carry his burden of
demonstrating that his motion for reconsideration should be granted. The Court therefore denied
the motipn. (Crim. ECF No. 80).
The matter proceeded to sentencing. The Finai.Presentence Report (PSR) determined that
Boyd’s base offense level on the drug charge was 32. Two points were then added under USSG §

4

Case l:19-cv-00447-RJJ ECF No. 36 filed 08/04/20 PagelD.367 Page 5 of 14

3C1.1 for obstruction ofjustice. (PSR f 31, ECF No. 75, PageID.435). The facts underlying the
enhancement were detailed by the probation officer as follows:
Following the execution of the search warrant, Mr. Boyd was
■arrested on August 31, 2016, and transported to the Kalamazoo
County Jail. He was temporarily placed in a holding cell to be
. . booked into the jail. Also in the holding cell were inmates who were
scheduled to be released. The defendant used the name and '
identification of an inmate set to be released and walked out of the
jail. After determining what had happened, police apprehended Mr.
Boyd a day later on September 1,2016, by tracing him to a residence
in Kalamazoo. He surrendered peacefully to the police and gave a
post-Miranda statement admitted he used the name of another
inmate to be released from the jail.
(PSR If 19, ECF No. 75, PageID.433).
Boyd presented several objections. Relevant for purposes here, Boyd objected that the
obstruction enhancement did not apply because the indictment did not charge him for escape and
that he was not prosecuted for the events. The Court overruled that objection because it was
undisputed that Boyd had impersonated someone else. Then, after proceeding through the
remaining sentencing considerations, the Court imposed a total term two hundred forty months of
custody, consisting of 180 months on Count 2, followed by a mandatory 60 months with respect
to Count 4. (ECF No. 82).
Boyd, through appellate counsel, appealed the issues raised in the suppression motions
filed by Attorney Kaczor and Attorney Graham. In an unpublished decision, the Sixth Circuit
Court of Apepals affirmed the Court’s decisions. United States v. Boyd, 735 F. App’x 202, 203
(6th Cir. 2018).
In his motion under 28 U.S.C. § 2255, as supplemented and amended, Movant asserts that
he is entitled to habeas relief because (1) his trial and appellate counsel were ineffective for failing
5

Case l:19-cv-00447-RJJ ECF No. 36 filed 08/04/20 PagelD.368 Page 6 of 14

to investigate the search warrant and (2) request a Franks hearing on the validity of the warrant;
(3) the government engaged in misconduct by proceeding with the case despite knowing that the
warrant was “bogus;” (4) Boyd was denied due process and his Sixth Amendment rights when he
received a two-level enhancement for obstruction, and counsel was ineffective for failing to raise
the matter to the Court of Appeals; and (5) Boyd was denied Due Process when the Court
considered his September 5, 2017 motion as one seeking a motion for reconsideration, rather than
a motion raising new arguments regarding the validity of the warrant.
LEGAL STANDARD
A federal prisoner may challenge his sentence by filing in the district court where he was
sentenced a motion under 28 U.S.C. § 2255. A valid Section 2255 motion requires a petitioner to
show that “the sentence was imposed in violation of the Constitution or laws of the United States,
the court was without jurisdiction to impose such sentence, or that the sentence was in excess of
the maximum authorized by law or is otherwise subject to collateral attack.” 28 U.S.C. § 2255(a).
Section 2255 affords relief for a claimed constitutional error only when the error had a substantial
and injurious effect or influence on the proceedings. Watson v. United States, 165 F.3d 486, 488
(6th Cir. 1999). Non-constitutional errors generally are outside the scope of Section 2255 relief,
and they should afford collateral relief only when they create a “fundamental defect which
inherently results in a complete miscarriage ofjustice, or, an error so egregious that it amounts to
a violation of due process.” Id. (internal quotation marks omitted).
To establish a claim of ineffective assistance of counsel, a movant must prove that: (1)
counsel’s performance fell below an objective standard of reasonableness; and (2) counsel’s
deficient performance prejudiced the defendant in a way that led to an unreliable or fundamentally
6

Case l:194cv-00447-RJJ ECF No. 36 filed 08/04/20 PagelD.369 Page 7 of 14

unfair outcome. Strickland v. Washington, 466 U.S. 668, 687 (1984). A court “must judge the
reasonableness of counsel’s challenged conduct on the facts of the particular case, and viewed as
of the time of counsel’s conduct, and judicial scrutiny of counsel’s performance must be highly
deferential.” Roe v. Flores-Ortega, 528 U.S.460, 477 (2000) (internal quotation marks omitted).
Counsel is not ineffective unless he or she “made errors so serious that counsel was not functioning
as the ‘counsel’ guaranteed the defendant by the Sixth Amendment.” Strickland, 466 U.S. at 687.
To establish prejudice, a movant must show “a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceedings would have been different.” Id. at 694; see
also United States v. Morrow, 977 F.2d 222, 229 (6th Cir. 1992) (en banc) (“[T]he threshold issue
is not whether [movant’s] attorney was inadequate; rather, it is whether he was so manifestly
ineffective that defeat was snatched from the hands of probable victory.”).
DISCUSSION
1. Processing ofthe Search Warrant
Boyd, first of all, contends that his trial attorneys were ineffective for failing investigate
the processing of the search warrant. Counsel has a duty to make reasonable investigations or to
make a reasonable decision that makes particular investigations unnecessary. Strickland v.
Washington, 466 U.S. at 691. “{A] particular decision not to investigate must be directly assessed
for reasonableness in all the circumstances, applying a heavy measure of deference to counsel's
judgments.” Id. The court should not consider if the choices were strategic, “but whether they
were reasonable.” Roe v. Flores-Ortega, 528 U.S. 470, 481 (2000). Accordingly, “[cjounsel’s
failure to investigate a defense may constitute ineffective assistance.” Cope v. United States, 385

7

Case l:19-cv-00447-RJJ ECF No. 36 filed 08/04/20 PagelD.370 Page 8 of 14

F. App’x 531, 533 (6th Cir. 2010) (citing Rompilla v. Beard, 545 U.S. 374, 387 (2005), and
Bigelow v. Haviland, 576 F.3d 284, 287 (6th Cir. 2009)).
But this is not such a case. Both of Boyd’s trial attorneys have submitted affidavits
—* ^

T"'

demonstrating that they did, in fact investigate the contentions Boyd says they should have
investigated and determined that no issue existed regarding the manner of how the warrant was
processed. (Graham Aff. ff 5-6, ECF No. 12, PageID.179-180; Kaczor Aff. f 7A, ECF No. 13,
PageID.182). While Boyd might disagree with the conclusions his attorneys reached after that
investigation, he has not demonstrated a basis for finding deficient performance or prejudice.
Boyd contends that certain state procedural requirements were not strictly followed when the
warrant was issued, but he fails to demonstrate that this meant the search of his residence was
constitutionally infirm.
The Fourth Amendment to the United States Constitution prohibits “unreasonable searches
and seizures.” U.S. Const, amend. IV. This right is enforced through the general requirement that
searches be conducted under a warrant supported by probable cause issued by a detached and
neutral magistrate. There is abundant record evidence to support the conclusion that the search of
Boyd’s residence was reasonable.

Both this Court, and the Court of Appeals, previously

determined that the warrant was supported by probable cause, a detennination Boyd does not
challenge here. The primary agent involved in the case, moreover, has submitted an affidavit
-

t

......................

■

■

stating he witnessed Judge Richard Santoni sign the warrant authorizing the search of Boyd’s
residence, and that the warrant was signed before the search was executed later that day. (Ham.
Aff. ff 4-5, PageID.22). Thus Boyd’s supposition that a different judge may have signed the _

8

Case l:19-cv-00447-RJJ ECF No. 36 filed 08/04/20 PagelD.371 Page 9 of 14

warrant is refuted by the record.3 Nor has Boyd presented any evidence to demonstrate that the
warrant was not issued until after the search of his residence had begun.. And Attorney Graham in
fact brought this up during the nonevidentiary hearing on the request for a Franks hearing, as Boyd
admits.
Accordingly, any attempt by defense counsel to raise a Fourth Amendment defense along
the lines Boyd lays out in his motion would have been frivolous. Boyd’s claim fails to establish
deficient performance. See Mapes v. Coyle, 171 F.3d 408, 413 (6th Cir. 1999) (“There can be no
constitutional deficiency in ... counsel’s failure to raise meritless issues.”). For the same reasons,
appellate counsel was not ineffective for failing to raise the argument on appeal.
2. Requestfor Franks Hearing
In Ground 2 of Boyd’s motion, he contends that counsel was ineffective because he
“submitted a brief for a motion to suppress pursuant to Franks v. Delaware without submitting
proof/affidavit.” (ECF No. !,PageID.5). Boyd fails to meet his burden under Strickland.
Under Franks, a party may challenge the veracity of a search warrant affidavit only “if that
party makes a ‘substantial preliminary showing that a false statement knowingly and intentionally
or with reckless disregard for the truth, was included by the affiant in the warrant affidavit,’ and
that the allegedly false statement was necessary for a finding of probable cause.” Mays v, City of
Dayton, 134 F.3d 809, 815 (6th Cir. 1998) (quoting Franks v. Delaware, 437.U.S. 154, 155-56
(1978)). If a court determines that the warrant affidavit establishes probable cause even if the

3 Boyd has submitted an affidavit from a cell mate that states the signature on Boyd’s search
warrant is not Judge Santoni’s but rather Judge Westra’s. There is no need for an evidentiary
hearing here. The affidavit from the cell mate, for one thing, relies on representations made by the
cell mate’s attorney, not his personal knowledge. And even if a separate judge had signed the
warrant, Boyd implicitly admits his warrant was signed by a judge.
9

Case l:19-cv-00447-RJJ ECF No. 36 filed 08/04/20 PagelD.372 Page 10 of 14

allegedly false statement is excluded, then the inquiry ends there. Id. If a party makes the
necessary substantial preliminary showing, then the party “is entitled to a hearing to determine if
a preponderance of the evidence supports the allegations of lack of veracity/’ Id. (citing Franks,
438 U.S. at 156).
This ground for relief fails. It merely repeats arguments that Boyd previously made, and
lost on the merits, during his direct criminal case. Indeed, the arguments that Boyd highlights were
actually made by his counsel in his brief supporting the motion to suppress. {See Crim. ECF No.
41). Boyd seems to believe that if his attorney had presented this argument in some other form,
with supporting declarations and evidence for example, the Court would have granted the request
for a Franks hearing. It is true that a substantial preliminary showing generally contemplates an
offer of proof. See United States v. Speer, 419 F. App’x 562, 572 (6th Cir. 2011). But it is plain
from a review of the motion that counsel understood this, and detailed what he would offer during
the hearing in support of the motion. Moreover, even if counsel had furnished an offer of proof
along the lines Boyd argues for here, Boyd has not demonstrated a different result would have
issued. It was not the manner or lack of an offer of proof that led to the denial of the motion.
Rather, as the Court explained during the evidentiary hearing, nothing in the arguments Boyd
advanced would have made a preliminary showing of a deliberate falsehood to warrant an
evidentiary hearing.

Nothing in Boyd’s Section 2255 motion disturbs this conclusion.

Accordingly, this ground for relief fails.
3. Prosecutor Misconduct
Next, Boyd argues in his amended motion that the prosecutor committed prosecutorial
misconduct “when he knew or should have known that the warrant was bogus.” Boyd reasons that ,
10

Case l:19-cv-00447-RJJ ECF No. 36 filed 08/04/20 PagelD.373 Page 11 of 14

this is so because he, and his counsel “kept bringing up issues concerning the warrant^]” (ECF
No. 15-1, PageID.201). This argument has been procedurally defaulted. To the extent Boyd
premises any claim of ineffective assistance of counsel on this issue, it also lacks merit.
The government had no obligation to dismiss Boyd’s criminal case merely because his
counsel filed motions seeking to suppress the evidence. The motions, furthermore, were
unsuccessful. This claim of prosecutorial misconduct also fails because Boyd failed to show that
statements in the warrant affidavit were actually false, as explained above and in earlier orders of
the Court. Finally.Boyd fails to show that the prosecutor knew the testimony to be false, nor could
. ■>

...

he given the record of the case. Accordingly, this ground for relief fails.
4. Due Process Violation
Boyd also claims that his rights to due process were violated when the Court construed his
September 5, 2017 motion as one for reconsideration. As the government makes very clear in its
brief, Boyd had raised his argument regarding the signature on his warrant before. (Crim. ECF
No. 60). The Court considered the argument, and rejected it in a subsequent order, finding no
basis for a Franks hearing on the matter. (Crim. ECF No. 76, PagelD.459). Thus, when Boyd
raised the argument again it was eminently reasonable for the Court to construe the motion as one
for reconsideration. The Court was not bound by the characterizations in the heading of Boyd’s
motion. Moreover, as the Court observed above, even if a different judicial officer had signed the
warrant, Boyd fails to explain how that would render the warrant invalid. At bottom, Boyd filed
a motion and the Court considered it, and found it without merit.
Accordingly, this claim is rejected.

11

Case l:19-cv-00447-RJJ ECF No. 36 filed 08/04/20 PagelD.374 Page 12 of 14

5. Sentencing Enhancement
Finally, Boyd argues he is entitled to relief because he was not indicted for the offenses
underlying the two-level obstruction enhancement applied to his guidelines. In his amended
Petition Boyd adds that since obstruction is a substantive criminal charge, he was denied his Due
Process and Sixth Amendment rights when it had not been proven, and determined by a jury, that
he was guilty of obstruction. He adds that appellate counsel was ineffective for failing to raise the
argument.
This argument is meritless and appellate counsel was not ineffective for failing to raise it
during Boyd’s appeal. Boyd has never argued that he did not engage in the conduct detailed in the
PSR that was used to enhance his sentence. As the Court observed when overruling Boyd’s
objection at sentencing, it did not matter that there was no federal charge pending when Boyd
engaged in the conduct. Nor did it matter that Boyd was never indicted for that conduct. See
U.S.S.G. § 3CI.1 n.4; United States v. Tevepaugh, 30 F. App’x 330, 332 (6th Cir. 2002); United
States v. Roberts, 243 F.3d 235, 239-40 (6th Cir. 2001) (applying enhancement where obstructive
conduct occurred during state, not federal, investigation, and finding “[t]he determinative factor
was that both sets of charges, and the obstruction activity, were related to the same underlying
activity.”). Accordingly, this argument fails for the very reasons detailed by the Court during
Boyd’s sentencing.
To the extent Boyd presents new arguments that a jury was required to find him guilty of
the conduct, this argument fails too, since the ultimate sentence was within the statutory range
authorized by his offenses of conviction. See United States v. Gates, 461 F.3d 703, 708 (6th Cir.
2006) (“Therefore, we find that judicial fact-finding in sentencing proceedings using a
12

Case l:19-cv-00447-RJJ ECF No. 36 filed 08/04/20 PagelD.375 Page 13 of 14

preponderance of the evidence standard post-Booker does not violate either Fifth Amendment due
process rights, or the Sixth Amendment right to trial by jury.”); see also U.S.S.G. § 6A1.3; United
States v. Go-ward, 315 F. App’x 544, 549-550 (6th Cir. 2009) (finding no clear error when
/ r.

. .

sentencing court applied obstruction enhancement under preponderance of the evidence standard
for conduct the government did not charge).
CONCLUSION
For these reasons, the Court concludes that Boyd is not entitled to the relief he seeks.
Before a movant may appeal the Court’s dismissal of his Section 2255 petition, a certificate
of appealability must issue. 28 U.S.C. § 2253(c)(1)(B); FED. R. APP. P. 22(b)(1). The Federal
Rules of Appellate Procedure extend to district judges the authority to issue certificates of
appealability. FED. R. App. P. 22(b); see also Castro v. United States, 310 F.3d 900, 901-02 (6th
Cir. 2002). Thus, the Court must either issue a certificate of appealability indicating which issues
satisfy the required showing or provide reasons why such a certificate should not issue. 28 U.S.C.
§ 2253(c)(3); Fed. R. App. P. 22(b)(1); In re Certificates ofAppealability, 106 F.3d 1306, 1307
(6th Cir. 1997).
A certificate of appealability may issue “only if the applicant has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). To make the required
“substantial showing,” the movant must demonstrate that “reasonable jurists would find the district
court’s assessment of the constitutional claims debatable or wrong.” Miller-El v. Cockrell, 537
U.S. 322, 338 (2003) (quoting Slack v. McDaniel, 529 U.S. 473, 484 (2000)). The Court does not
believe that reasonable jurists would find the Court’s assessment of the claims Boyd raised
debatable or wrong.
13

Case l:19-cv-00447-RJJ ECF No. 36 filed 08/04/20 PagelD.376 Page 14 of 14

ACCORDINGLY, IT IS ORDERED:
1.

Boyd’s Motion to Amend / Correct (ECF No. 15) is GRANTED to the extent Boyd
wishes to amend his Section 2255 motion. It is DENIED in all other respects.

'

2.

Boyd’s Motion under 28 U.S.C. § 2255 to Vacate, Set Aside or Correct Sentence
(ECF No. 1) is DENIED.

Dated:

3.

Boyd’s motion to expedite (ECF No. 35) is DISMISSED AS MOOT.

4.

Boyd’s request for a Certificate of Appealability is DENIED.

August 4. 2020

/s/ Robert J, Jonker
ROBERT J. JONKER
CHIEF UNITED STATES DISTRICT JUDGE .

14

No. 20-1912
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

MICHAEL NATHANIEL BOYD

)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant

v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

FILED
Apr 08, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: DAUGHTREY, McKEAGUE, and THAPAR, Circuit Judges.

Michael Nathaniel Boyd petitions for rehearing en banc of this court’s order entered on
January 4, 2021, denying his application for a certificate of appealability. The petition was initially
referred to this panel, on which the original deciding judge does not sit. After review of the petition,
this panel issued an order announcing its conclusion that the original application was properly
denied. The petition was then circulated to all active members of the court, none of whom
requested a vote on the suggestion for an en banc rehearing. Pursuant to established court
procedures, the panel now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

ApperatiiC C

Case l:19-cv-00447-RJJ ECF No. 41 filed 09/09/20 PagelD.441 Page 1 of 1

r
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

MICHAEL NATHANIEL BOYD,
Movant,
File No: L19-CV-447
v.
HON. ROBERT J. JONKER
UNITED STATES OF AMERICA,
Respondent.

ORDER DENYING MOTION FOR RECONSIDERATION
This Court has reviewed Movant’s motion to alter or amend judgment, which the Court is
construing as a motion for reconsideration of the Court’s denial of his motion under 28 U.S.C. §2255
(ECF No. 39).
Movant having raised no new issues not already considered by this Court, and having failed
to convince the Court that its prior ruling was erroneous, the Court hereby DENIES Movant's motion
for reconsideration and reaffirms its opinion and order of August 4, 2020.

Date:

September 9, 2020

Is! Robert J. Jonker
ROBERT J. JONKER
CHIEF UNITED STATES DISTRICT JUDGE

C)

Case l:l6~cr-00192-RJJ HCF No. 23-1 filed 11/29/16 PagelD.79 Page 1 of 7
CASE NO.

STATE OF MICHIGAN
8th DISTRICT COURT.

SEARCH
WARRANT
OFFICER AARON HAM, affiant states that:
1. THE PERSON, PLACE OR THING TO BE SEARCHED IS DESCRIBED
AS AND IS LOCATED AT:
•r

residence west of Oak St. on the north side of McCourtie St. The apartment is farther
described as being located on the second floor of the building which is accessed by a
staircase on the north side of the building. The apartment door is white in color. Also to
be searched are any grounds, rooms, closets, storage spaces, persons, vehicles and/or
appurtenant structures located on the premise and in the control of the residents of^H
McCourtie St. Apt 2.
2. THE PROPERTY TO BE SEARCHED FOR AND SEIZED, IF FOUND, IS
SPECIFICALLY DESCRIBED AS:

Su!)St2DCCS

•

3. Any paper, bills, receipts showing residency or control of the above premises.
4. Any and all firearms located in the aforementioned premises. -

IN THE NAME OF THE PEOPLE OF THE STATE OF MICHIGAN:

I have found that probable cause exists and you are commanded to make the search and
seize the described property. You are farther commanded to promptly return tnis warrant
and tabulation to the Court.

ISSUED:

%13/ / It?

t

Case l;16-cr-00192-RJJ ECF No. 23-1 filed 11/29/16 PagelD.80 Page 2 of 7
CASE NO.

STATE OF MICHIGAN
8th DISTRICT COURT
AFFIDAVIT FOR SEARCH WARRANT
OFFICER AARON HAM, affiant states that:
1.

THE PERSON, PLACE OR THING TO BE SEARCHED IS DESCRIBED AS
AND IS LOCATED AT:

The residence located at
McCourtie St. Apt 2, City of Kalamazoo, County of
Kalamazoo, State of Michigan. The residence is a two story multiple family.building that
contains two apartments. The building is brown with green trim exterior and is the third
residence west of Oak St. on the north side of McCourtie St. The apartment is further
described as being located on the second floor of the building which is accessed by a
staircase on the north side of the building. The apartment door is white in color. Also to
be searched are any grounds, rooms, closets, storage spaces, persons, vehicles and/or
appurtenant str uctures located on the premise and in the control of the residents of USE
McCourtie St. Apt 2.
2.

THE PROPERTY TO BE SEARCHED EOR AND SEIZED, IF FOUND, IS
SPECIFICALLY DESCRIBED AS:
1. Any forms of methamphetamine and/or other controlled substances.
2. Any tools, equipment, records, notes, tabulations and U.S. currency believed to be
the evidence and proceeds in manufacturing and/or trafficking of controlled
substances.
3. Any paper, bills, receipts showing residency or control of the above premises.
4. Any and all firearms located in the aforementioned premises.

3.

THE FACTS. ESTABLISHING PROBABLE CAUSE OR THE GROUNDS
FOR SEARCH ARE:
A. I am currently employed as a Police Officer with the Portage department of
Public Safety, and assigned to the Kalamazoo Valley Enforcement Team. My
current duties include, but are not limited to investigating violations of City
Ordinances and State Statutes including controlled substance violations. I
have been a police officer for 17 yearn and during that time have been
involved in the investigation of 1000+ cases involving controlled substances.
I have received training related to the investigation of controlled substance
activities from my time in training and on patrol at Portage Department Public
Safety. This experience and training has made this officer knowledgeable in
activities surrounding the packaging, sale and trafficking of controlled
'substances.
B. That MICHAEL NATHANIEL BOYD B/M DOB 6-15-82 has four
outstanding warrants for his arrest at this time.
This affidavit consists of _4__pages.

Subscribed and sworn before me on:.

mk

'ate
Exhibit

Affian:
magistrate

Case l:16-cr-00192-RJJ ECF No. 23-1 filed 11/29/16 PagelD.81 Page 3 of 7
AFFIDAVIT FOR SEARCH WARRANT
- 2 of 4 -

C. That in May of 2016 your affiant spoke with a subject, who wished to iemain

anonymous, who advised that BOYD lived at «McCourtie St Apt 2. That
this subject also stated that BOYD is selling illegal substances from his
apartment and that there is a large amount of vehicle and foot traffic to and
from BOYD’S apartment.

D That on 5-11-16 your affiant and other KVET Investigators performed
' surveillance on BOYD atHlMcCourtie Street. Your affiant positively
identified BOYD driving a vehicle from behind the residence ontoMcCourtie
St. and out of the area. Later in the day your affiant observed BOYD enteung
the upstairs apartment ofjjHlMcCourtie Street.
E That in July 2016 KVET Inv. Wolbrink spoke with a subject who wished to
' remain anonymous who advised that MICHAEL BOYD, who lives on
McCourtie St., is selling methamphetamme from his upstairs apartment.
F That within the last 24 hours your affiant met with a confidential
(Cl) who provided information on a subject Mm the Cl knows as MICHAEL
BOYD. The Cl advised that BOYD lives atHBMcCourtie SLApt 2 and
sells several illegal substances including methamphetamme. The Cl advised
your affiant that BOYD carries a pistol on his person at all times because he
was recently robbed for his drugs and money. The Cl indicated that he/she can
purchase methamphetamme from BOYD.
G. That in the last 24 hours, your affiant utilized the same Cl to conduct a
controlled purchase of methamphetamme from BOYD.
1 . Your affiant strip searched the Cl and didn’t locate any contraband
and/or US currency.
2. Your affiant searched the Cl’s vehicle and didn’t locate any

contraband and/or US currency.

3. Your affiant provided the Cl with official KVET funds.
4. The Cl called BOYD via cell phone number (269) 290-9782 and
ordered the methamphetamine.
BOYD’s description,

1

towards the back parking areaf

Affiant

Judge/Magistrate Eight District Court

£Date

■ / /f

Date
Exhibit A

Case l:16-cr-00l92-RJJ ECF No. 23-1 filed 11/29/16 PagelD.82 Page 4 of 7
AFFIDAVIT FOR SEARCH WARRANT
- 3 of 4 6. Your affiant and Sgt. Ferguson kept the Cl under constant surveillance
while he/slie drove toSHHMcCourlie Street.
7. Your affiant observed the Cl meeting with a subject in the back
parking area in a white vehicle.
8. Your affiant and Sgt. Ferguson kept the Cl under constant surveillance
while returning to K.VET Investigators.
9. The Cl advised that he/she had made contact with MICHAEL BOYD.
10. The Cl advised your affiant that BOYD had sold him/her
methamphetamine.
11. The informant turned over the purchased methamphetamine.
12. The Cl was strip searched again, revealing no other contraband and /or
US Currency.
13. Sgt. Ferguson, Inv. Khillah, and Inv. Behnen searched the Cl’s vehicle
again and did not locate any contraband and/or US currency.
14. Your affiant field tested the methamphetamine which gave positive
results for the presence of methamphetamine.
H. That based on your affiant’s experience and participation in other drug
Investigations, your affiant knows the following:
1. That drug traffickers maintain, on hand or nearby (including the possession
of other individuals present) 'large sums of U.S. currency in order to
maintain and finance their on-going drug business.
2. That drug traffickers maintain books, notes, ledgers, records, receipts and
other papers relating to the transportation, ordering, sale and distribution of
controlled substances, and that these items are maintained where the
traffickers have ready access to them;
3. That it is common for drug dealers to secrete contraband and proceeds of
drug transactions and records of transactions in secure locations in their
residences and/or they often utilize a second and separate location to
utkorities;
conceal these items from law enforcer

Judge.

Date
Exhibit A

gistrate Eight District Court

vr •

Case l:16-cr-00192-RJJ ECF No. 23-1 filed 11/29/16 Page!D.83 Page 5 of 7

AFFIDAVIT FOR SEARCH WARRANT
- 4 of 4 4. That these items concealed by persons engaged in drug trafficking are
caches of drugs, large amounts of currency, financial instruments, precious
metals, jewelry and other items of value and/or proceeds of drug
transactions* evidence of financial ■ transactions relating to obtaining,
transferring, secreting or spending large sums of money made from
engaging in drug trafficking activities;
5. That when drug traffickers amass proceeds from the sales of drugs, the drug
traffickers attempt to legitimize these profits. To accomplish these goals, drug
traffickers utilize, including but not limited to, banks and their attendant
services, securities, cashiers checks, money drafts and real estate. These same
traffickers will also put assets in the names of others, again to conceal from
law enforcement authorities;
6. That drug traffickers take, or cause to be taken, photographs of themselves,
Their associates, their property and their drugs;
7. That drug traffickers commonly maintain addresses or telephone numbers
in books or papers, which reflect names, addresses and/or telephone
numbers of their associates in the drug trafficking organization;
8. That drug traffickers commonly have in their possession, either on their
person or at their residence, firearms. These firearms arc used to protect
and secure a drug trafficker’s proceeds of drug.trafficking,, the drugs and
themselves;
9. That drug traffickers maintain packaging materials, equipment and scales
utilized in the packaging of their drugs at their residence.
10. That drug traffickers often store narcotics and other drug paraphernalia in
garages, vehicles, and storage buildings and/or appurtenant structures
located on the property of the residence.
11.
- .

I.

ffiant

Date

That through your affiant’s training, experience, and education, it is
known that person who use, sell, and traffic illegal drugs will commonly
carry and conceal drugs, paraphernalia, and/or weapons on their person.

That your affiant states that based on tire above listed information and other
facts given that there is probable cause to believe that drug evidence and
related items can be found at aforementioned location, and that the. occupant
there is partaking in ongoing violations o the con] oiled substance act. The
-aforementioned location should be sear^^d/^ndj^tedJtems seized if located.

udge/Magistrate Eight District Court

Date
Exhibit A

January 29, 2019

Michael Nathaniel Bcyd
15732-040
Pekin FCI
p.0. Box 5000
Pekin, Illinois 61555
Clerk of the Court
150 E. Crosstown Parkway
Kalamazoo/ Michigan 49001
RE: Case No. 16-13846 "Requesting Certified copies of documents"

Warrant Affidavit and (3) The Search Warrant. In addition, Ij™
,
requesting that the documents bear the signature of an employee wno has
a sea] and official duties within the office to certify that the papers
are genuine and copies of the true originals.
If there is a fee or another process I must take in locate rig the
following documents, please send me a response letter with the details.
I would like a response as soon as possible please and thank you so much
for your time and help.
Sincerely Yours,

5 STATE OF MICHIGAN
150 E. Crosstown Parkway, Kalamazoo, Ml 49001
227 W. Michigan Avenue, Kalamazoo, Ml 49007
Telephone: (269) 384-8171
www.kalcountv.com/courts/distria

7 8TH DISTRICT COURT
3/27/19

MICHEL NATHANIEL BOYD
15732-040; PEKIN FCI
PO BOX 5000
PEKIN IL 61555

Case/Ticket Number RECORDS
The Court has received correspondence and/or a payment that is being returned to you
for the following reason:
□ We are unable to determine the ticket/case number. Please print clearly the name of the
defendant and the ticket/case number for which the payment is intended. A telephone
number would also be helpful.
□ Payment using your credit card requires the 3 or 4 digit code from the signature line on the
back of the credit card. Please provide the information below and return for processing.
Card No.

^__Security Code

Expiration Date

Address.
□ Credit card transaction has been declined.
□ The Court does not accept “counter" check issued by the bank for new accounts. Please
remit with a printed check, money order or credit card.
| | Check or money order is not signed or the check was made out incorrectly. Please sign and
return to the Court within 14 calendar days.
! | The matter has been dosed and there is no balance due.
[gj THE CASE YOU iNQUIRED ABOUT (16-13846) HAS BEEN NOLLE PROSEQUI BY THE
PROSECUTOR. ENCLOSED IS A COPY OF THE REGISTER OF ACTIONS. THE SEARCH WARRANT IS
NOT INCLUDED IN THE CASE FILE.
A balance remains due for the following reason:
□ A $25.00 late fee has been assessed.
□ The driver’s license of the defendant has been suspended. A $45.00 license reinstatement
fee is due and must be paid in full. IT MAY NOT BE SATISFIED BY COMMUNITY
SERVICE.

□
Deputy OlrTF
Hon. Tiffany A. Ankley, Probate Judge
Hon. Kathleen P. Hemingway

Hon. Anne E. Blatchford
Hon. Richard A. Santoni
Court Administrator
AnnE. Filkins

Hon. Christopher T. Raenicke, Chief Judge
Hon. Vincent C. Westra

STATE OF MICHIGAN
8TH JUDICIAL DISTRICT
ORI390045J
PIN: 16-013846

REGISTER OF ACTIONS
'

CASE NO:
161193FY . D01 FY
X-REFERENCE #:
1613846
09/21/16
STATUS: CLSD

JUDGE OF RECORD: WESTRA,VINCENT C.,
JUDGE: WESTRA,VINCENT C.,

P-35348
P-35348

STATE OF MICHIGAN V
BOYD/MICHAEL/NATHANIEL
716 MCCOURTIE ST APT 2
MI 49008
KALAMAZOO

DOB: 06/15/1982 SEX: M RACE: U
VEH YR:
VEH MAKE:
DEFENSE ATTORNEY ADDRESS
MCDONOUGH,WARD F.,JR.
137 N PARK ST
STE 103
MI 49007 .
KALAMAZOO
OFFICER:

ENTRY
OFFENSE
ARREST

CTN: 391600761001
TCN: K116G06006L
SID: 1974009J
DATE: 09/02/16
DATE: 08/31/16
DATE:
VPN:
CDL: U
PAPER PLATE:

VEHICLE TYPE:
DLN: MI B300603622447
VIN:
BAR NO.
P-17381
Telephone No.

APPOINTED

(269) 276-0921
DEPT: KVET
P-43227

PROSECUTOR: GETTING,JEFFREY S.,
VICTIM/DESC:

PACC#333.74012B1
CNT: 01 C/M/F: F 33374012B1
CONT SUBS-DEL/MANUFACTURE METHAMPHETAMINE/ECSTASY
PLEA DATE: 09/02/16
EXAM DEMAND
ARRAIGNMENT DATE:
09/02/16
PLEA:
FINDINGS: NOLLE PROSEQ
DISPOSITION DATE: 09/21/16
SENTENCING DATE:
TOT DUE
REST
TOT FINE
MISC.
CON
COST ST.COST
FINE
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
PROBATION:
JAIL SENTENCE:
VEH FORFEITURE:
NUMBER OF DAYS:
VEH IMMOB START DATE:
BOND HISTORY:
500,000.00

CASH OR SURETY

BOND SET

PACC#750.227B-A
CNT: 02 C/M/F: F 750227B-A
WEAPONS-FELONY FIREARM
PLEA DATE: 09/02/16
EXAM DEMAND
ARRAIGNMENT DATE:
09/02/16
PLEA:
FINDINGS:
NOLLE PROSEQ
DISPOSITION DATE: 09/21/16
SENTENCING DATE:
TOT DUE
REST
TOT FINE
MISC.
COST ST.COST •
CON
FINE
0.00
0.00
0.00
0.00
0.000.00
0.00
0.00
PROBATION:
JAIL SENTENCE:
VEH FORFEITURE:
• NUMBER OF DAYS:
VEH IMMOB START DATE:
PACC#333.74012A4
CNT: 03 C/M/F: F 33374012A4
CONT SUBS-DELIVER/MANUF (NARCOTIC OR COCAINE) < THAN 50 GRAMS
PLEA DATE: 09/02/16
EXAM DEMAND
PLEA:
ARRAIGNMENT DATE:
09/02/16
FINDINGS:
NOLLE PROSEQ
DISPOSITION DATE: 09/21/16
SENTENCING DATE:
TOT DUE
TOT FINE
REST
• MISC.
COST ST.COST
CON
FINE
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
PROBATION:
JAIL SENTENCE:

i

CASE NO:

NAME: BOYD/MICHAEL/NATHANIEL

161193FY

2

VEH FORFEITURE:

NUMBER OF DAYS:

VEH IMMOB START DATE:

PAGE

PACC#750.227B-A
CNT: 04 C/M/F: F
750227B-A
WEAPONS-FELONY FIREARM
PLEA DATE: 09/02/16
EXAM DEMAND
ARRAIGNMENT DATE;
09/02/16
PLEA:
DISPOSITION DATE: 09/21/16
FINDINGS:
NOLLE PROSEQ
SENTENCING DATE:
TOT DUE
TOT FINE
REST
CON
MISC.
COST ST.COST
FINE

0.00 .

0.00

0.00

0.00

0.00

0.00

PROBATION:
NUMBER OF DAYS:

JAIL SENTENCE:
VEH IMMOB START DATE:

0.00

0.00
VEH FORFEITURE:

. PACC#750.224F
CNT: 05 C/M/F: F
750224F
WEAPONS - FIREARMS - POSSESSION BY FELON
PLEA DATE: 09/02/16
EXAM DEMAND
PLEA:
ARRAIGNMENT DATE:
09/02/16
DISPOSITION DATE: 09/21/16
FINDINGS:
NOLLE PROSEQ
SENTENCING DATE:
TOT DUE
TOT FINE
REST
MISC.
CON
COST ST.COST
FINE

0.00

0.00

0.00

0.00

0.00

0.00

PROBATION:
NUMBER OF DAYS:

JAIL SENTENCE:
VEH IMMOB START DATE:

0.00

0.00
VEH FORFEITURE:

PACC#750.227B-A
750227B-A
CNT: 06 C/M/F: F
WEAPONS-FELONY FIREARM
PLEA DATE: 09/02/16
EXAM DEMAND
PLEA:
ARRAIGNMENT DATE:
09/02/16
DISPOSITION DATE: 09/21/16
NOLLE PROSEQ
FINDINGS:
SENTENCING DATE:
TOT DUE
TOT FINE
REST
MISC.
CON
FINE
COST ST.COST

0.00

0.00

0.00

0.00

0.00

0.00

PROBATION:
NUMBER OF DAYS:

JAIL SENTENCE:
VEH IMMOB START DATE:

0.00

0.00
VEH FORFEITURE:

PACC#750.224F6
750224F6
CNT: 07 C/M/F: F
AMMUNITION - POSSESION BY FELON
WEAPONS
PLEA DATE: 09/02/16
EXAM DEMAND
PLEA:
ARRAIGNMENT DATE:
09/02/16
NOLLE PROSEQ
DISPOSITION DATE: 09/21/16
FINDINGS:
SENTENCING DATE:
TOT DUE
TOT FINE
REST
CON
MISC.
COST ST.COST
FINE

0.00

0.00

0.00

0.00

PROBATION:
NUMBER OF DAYS:

JAIL SENTENCE:
VEH IMMOB START DATE:
DATE

0.00

0.00

ACTIONS,

JUDGMENTS,

08/31/16
DEL/MANF DRG
1
ORIGINAL CHARGE
WEAPONS
2
ORIGINAL CHARGE
DEL/MAN DRUG
3
ORIGINAL CHARGE
WEAPONS
4
ORIGINAL CHARGE
POSS FELON
5
ORIGINAL CHARGE
COUNT 1: 2ND OR SUBSEQUENT OFFENSE NOTICE
COUNT 3: 2ND OR SUBSEQUENT OFFENSE NOTICE
09/02/16
090216
FILING DATE
1
AUTHORIZATION OF COMPLAINT DATE

i

CASE NOTES

0.00

0.00
VEH FORFEITURE:

INITIALS

AJC
AJC
AJC
AJC
AJC
AJC
AJC
AJC
AJC

\

NAME: BOYD/MICHAEL/NATHANIEL
DATE

CASE NO: 161193FY

ACTIONS/ JUDGMENTS, CASE NOTES

PROS GETTING,JEFFREY S.,
COMPLAINT ISSUANCE DATE .
6 MISCELLANEOUS ACTION
WEAPONS
WEAPONS
ADDED CHARGE
WEAPONS-AMMO
7 MISCELLANEOUS ACTION
WEAPONS-AMMO
ADDED CHARGE
PC HEARING HEARD: CT K - AEB
ALL COUNTS
MISCELLANEOUS ACTION
. JUDGE OF RECORD/MAGISTRATE CHANGED
FROM: 00000 NO SPECIFIC JUDGE
TO: 35348 WESTRA,VINCENT C.,.
SCHEDULED FOR ARRAIGNMENT 090216 130P JUDGE,ARRAIGNMENT,
VERIFIED PRINTS TAKEN AND CCH FILED
IN CUSTODY
TCN ADDED
ALL COUNTS
MISCELLANEOUS ACTION
SCHEDULED FOR PRELIMINARY EXAMINATION CONFERENCE HEARING
091416 830A KROPF,ROBERT C.,
SCHEDULED FOR EXAMINATION 092116 130P WESTRA,VINCENT C.f
NOTICE TO APPEAR GENERATED
ALL COUNTS
DEL/MANF DRG
1 BAIL BOND GENERATED
DEL/MANF DRG
MISCELLANEOUS ACTION
BOND PRINTED TO JAIL
ALL COUNTS
ARRAIGNMENT HELD
JDG BLATCHFORD,ANNE E.,
ATT FY-CT ATTY,/,
EXAMINATION DEMANDED
CASH OR SURETY
$ 500000.00
BOND SET
ORDER FOR COURT APPOINTED ATTORNEY FILED
2,2A,11 RELEASE TO OCC TO BE PLACED ON GPS
TETHER
NTA TO DEF IN CUSTODY BY CT STAFF
CAA PET TAKEN, SENT TO CC BY CT STAFF
PT RELEASE & CAA PET FILED
PT RELEASE TO OCC BY CT STAFF
09/06/16
NTA TO PROS OFF & AGENCY
09/07/16
PREV. 716 MCCOURTIE STREET
MI 49001
ADDR: KALAMAZOO
SOURCE: PER JUDGE ON ROA
09/08/16
ALL COUNTS
MISCELLANEOUS ACTION
ATT MCDONOUGH,WARD F.,J
09/14/16
PRE-EXAMINATION HEARING HELD
ALL COUNTS
EXAM STILL ON
DEL/MANF DRG
1 BAIL BOND GENERATED
PT RELEASE FILED
09/21/16

PAGE

3
INITIALS

P-43227

# . 2084

AJC
AJC i
AJC
AJC
AJC
AJC
AJC
AJC
AJC
AJC
AJC
AJC
AJC
AJC
AJC
CKG I
!

P-16262
P-35348

P-44377
# 9999

CKG
CKG
CKG
DAB
DAB
DAB
CKG
CKG
CKG
CKG
CKG
CKG
CKG
CKG
CKG
KLM
KLM
KLM
KLM
KLM
BAM
BAM
BAM

P-17381

JLA
JLA
MAR
MAR
MAR
KLM

NAME: BOYD/MICHAEL/NATHANIEL
DATE

PAGE

CASE NO: 161193FY

4
INITIALS

ACTIONS, JUDGMENTS, CASE NOTES

COPY OF NOLLE TO KCSD
SIGNED BY VCW
NOLLE FILED
COPIES OF NOLLE TO DEF, DEF ATTY, PROS'OFF
& AGENCY
FILE TO DISPO
DEL/MANF DRG
1 MISCELLANEOUS ACTION
JDG WESTRA,VINCENT C.,
ORDER OF NOLLE PROSEQUI ENTERED
WEAPONS
2 MISCELLANEOUS ACTION
ORDER OF NOLLE PROSEQUI ENTERED
DEL/MAN DRUG
3 MISCELLANEOUS ACTION
ORDER OF NOLLE PROSEQUI ENTERED
WEAPONS
4 MISCELLANEOUS ACTION
ORDER OF NOLLE PROSEQUI ENTERED
POSS FELON
5 MISCELLANEOUS ACTION
ORDER OF NOLLE PROSEQUI ENTERED
WEAPONS
6 MISCELLANEOUS ACTION
ORDER OF NOLLE PROSEQUI ENTERED
A FEDERAL ARREST WARRANT HAS BEEN ISSUED
OUT OF THIS INCIDENT THEREFORE THE INTEREST
OF JUSTICE ARE SERVED BY DISMISSAL OF CASE
WEAPONS-AMMO
7 MISCELLANEOUS ACTION
ORDER OF NOLLE PROSEQUI ENTERED
WEAPONS-AMMO
MISCELLANEOUS ACTION
CASE CLOSED
09/23/16
CERT COPY OF ROA SENT TO OPA
03/26/19
EJUD COMPLETED PER MSP OPEN CASE REPORT.
02/13/20
REC LETTER FROM DEF STATING HE SENT IN PYMT
IN DECEMBER. WE REC ENVELOPE FWD FROM XTOWN
WITH NO CHECK/MONEY ORDER IN IT. VERIFIED
WITH XTOWN THEY DID NOT RING IT IN. SINCE
NO PYMT WAS RECEIVED, ROA WAS NOT SENT

P-35348

BAM
RMS
SPD
SPD
SPD
SPD
SPD

t, ANN g gllKlNS. Oert Of me DsSfiCt
•Court of ssifl County do hsrefty CEPTIFV
th«! the toregang is a Sue and correct copy
of the ongrcf! thereof on te tn said Court

STATE OP MICHIGAN
COUNTY OF KALAMAZOO

Signed and seated at Kalamazoe, Michigan

This.

9

-77.«

20 J3J2__

ANN £. FILKINS. CLERK OF THE COURT

r/giputy Clerk

6
***** END OF REGISTER OF ACTIONS * * * * *

DAV
KLM
KLM
KLM
KLM
BAM
BAM
BAM
BAM
BAM
BAM
BAM
BAM
BAM
BAM I
BAM I
BAM
BAM .
BAM
BAM
BAM
BAM
BAM
BAM
BAM

729/20 10:42

Case: 20-1912

Document: 15-1

Filed: 04/08/2021

(1 of 2)

Page: 1

No. 20-1912
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
MICHAEL NATHANIEL BOYD
Petitioner-Appellant;
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)
)

FILED
Apr 08, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: DAUGHTREY, McKEAGUE, and THAPAR, Circuit Judges.

Michael Nathaniel Boyd petitions for rehearing en banc of this court’s order entered on
January 4, 2021, denying his application for a certificate of appealability. The petition was initially
referred to this panel, on which the original deciding judge does not sit. After review of the petition,
this panel issued an order announcing its conclusion that the original application was properly
denied. The petition was then circulated to all active members of the court, none of whom
requested a vote on the suggestion for an en banc rehearing. Pursuant to established court
procedures, the panel now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

